                               Report Template Update = 04-30-05_rev.12




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





GENERIC DRUG UTILIZATION IN 

 STATE MEDICAID PROGRAMS





                    Daniel R. Levinson

                     Inspector General 


                       July 2006

                     OEI-05-05-00360

                                                           Report Template Update = 04-30-05_rev.12




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                      S U M M A R Y                                      



                  OBJECTIVE
                  To determine the extent of generic drug utilization in State Medicaid
                  programs during 2004.


                  BACKGROUND
                  Medicaid is a jointly funded Federal and State health insurance
                  program for certain low income and medically needy persons.
                  Prescription drug costs are one of the largest and fastest growing
                  Medicaid expenditures, totaling more than $34 billion in fiscal
                  year 2003.

                  Rising Medicaid costs have bolstered Federal support for using generic
                  drugs to contain Medicaid prescription drug expenditures. A generic
                  drug is chemically identical to its brand name counterpart, with the
                  same therapeutic effect and the same risk-benefit profile. Generic
                  drugs are, on average, 63 percent less expensive than brand name
                  drugs.

                  The Centers for Medicare & Medicaid Services (CMS) has encouraged
                  generic drug substitution (i.e., substituting a generic drug for its brand
                  name equivalent) as a safe and effective way for States to increase
                  generic drug utilization and reduce costs. Many States have
                  implemented policies to encourage generic substitution in their State
                  Medicaid programs.

                  Generic substitution is not possible when a provider prescribes a single
                  source drug (i.e., a drug that has no generic equivalent). While single
                  source drugs are the only available treatment for some conditions, other
                  conditions are treatable with a number of drugs, some of which have
                  generic equivalents and some of which do not. Some States and private
                  insurers encourage health care providers to prescribe drugs with generic
                  equivalents rather than single source drugs, which tend to be newer and
                  more expensive.

                  The overall level of generic drug utilization is determined both by the
                  frequency of generic substitution at the pharmacy counter and by
                  physician prescribing patterns. Therefore, in addition to assessing
                  overall generic drug utilization (i.e., the percentage of all prescriptions
                  that were generics), this study calculated the following indicators that
                  contributed to overall generic utilization:



OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S       i
E X E C U T I V E                         S U           M M A R Y


                   1. 	Generic substitution rate: the percentage of all prescriptions for
                       multisource drugs (i.e., drugs that have a generic substitute) that
                       were dispensed as generics.

                   2. 	Single source prescribing rate: the percentage of all prescriptions
                       that were written for single source drugs (i.e., drugs that have no
                       generic version).


                   FINDINGS
                   On average, generics were dispensed 89 percent of the time when
                   generic substitutes were available. The “generic substitution rate”
                   measures how often generics are dispensed when generic substitutes
                   are available. Across all States, both the median and the average
                   generic substitution rates were 89 percent. Twenty-three States had
                   generic substitution rates at or above 90 percent. This compares
                   favorably with a 90 percent private sector benchmark.

                   Overall, generic substitution rates were similar across States. However,
                   States showed substantial variation in their generic substitution rates
                   within certain therapeutic classes (i.e., groups of drugs that treat the
                   same medical condition). For example, the generic substitution rate for
                   anticoagulant drugs (blood thinners) ranged from 27 percent in one
                   State to 100 percent in another.
                   On average, 41 percent of prescriptions were written for drugs that
                   have no generic substitutes. Single source drugs have no generic
                   substitutes. Therefore, the proportion of prescriptions that are written
                   for them (i.e., the single source prescribing rate) limits States’
                   opportunities for generic drug utilization.

                   On average, single source drugs comprised 41 percent of all prescriptions
                   filled. Thus, for this 41 percent of prescriptions, there was no opportunity
                   to dispense a generic drug. Across State Medicaid programs, the single
                   source prescribing rate ranged from 34 percent to 50 percent.
                   On average, 54 percent of all drugs dispensed were generics. The
                   “generic utilization rate” is the percentage of all prescriptions dispensed
                   that were generics. Across all States, both the median and the average
                   generic utilization rates were 54 percent. By State, generic utilization
                   rates varied from 44 percent to 61 percent. To place these rates in
                   context, trade publications report 2004 generic utilization rates of
                   approximately 48 percent to 52 percent for many private pharmacy benefit
                   organizations and health plans.

 OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   ii
E X E C U T I V E                         S U           M M A R Y


                   Variation in generic utilization was primarily explained by variation in
                   single source prescribing. Generic drug utilization is affected both by
                   generic drug substitution and by physician prescribing patterns.
                   However, because generic substitution was both high and consistent
                   across States, single source prescribing was the primary explanation for
                   differences in generic drug utilization overall. Generic utilization was
                   highest in States where single source prescribing was lowest.


                   CONCLUSION
                   We found that overall, State Medicaid programs demonstrated high
                   generic drug utilization in 2004. On average, 54 percent of all
                   prescriptions dispensed were generics, a figure that compares favorably
                   to rates reported in the private sector.

                   On average, generics were dispensed 89 percent of the time when
                   generic substitutes were available. The high levels of generic
                   substitution that we found for many Medicaid programs suggest that
                   many States may have already achieved most of the growth in generic
                   utilization possible through increasing generic substitution. However,
                   certain therapeutic classes show substantial variation in States’ generic
                   substitution rates, and thus, greater potential for gains in States with
                   lower rates in these classes.

                   To achieve significant increases in generic drug utilization, it is
                   important to recognize that single source drug prescribing caps the level
                   of generic drug utilization that a State Medicaid program can attain.
                   States may realize greater gains by encouraging the prescribing of
                   multisource drugs, which have generic equivalents, through counter-
                   detailing, step therapy requirements, or other means. However, such
                   efforts must be undertaken with caution to ensure that patients
                   maintain access to appropriate treatment.

                   In light of these findings, we suggest that CMS consider the following:

                   o 	 For States seeking to further increase generic substitution, CMS
                       could assist States in identifying and targeting their efforts to
                       promote generics in therapeutic classes wherein their State rate is
                       substantially lower than other States and opportunities for gains
                       are greatest.

                   o 	 For States seeking more substantial gains in generic utilization,
                       CMS could offer information and technical assistance in shifting
                       utilization from single source to multisource drugs in a clinically

 OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   iii
E X E C U T I V E                         S U           M M A R Y


                           responsible manner. In particular, CMS has developed expertise in
                           the therapeutic interchangeability of drugs through Medicare’s
                           oversight of Part D formularies. Such expertise would be a valuable
                           resource for States that desire assistance in developing policies to
                           influence prescribing patterns while ensuring that beneficiaries
                           maintain access to appropriate treatment.


                   AGENCY COMMENTS
                   In its comments, CMS indicated that it strongly encourages the
                   dispensing of generic drugs. As OIG noted in our report, drug
                   manufacturer rebates may occasionally provide States with better
                   prices on some brand name drugs than on generics. CMS suggested
                   that this could account for lower generic utilization rates for certain
                   therapeutic classes in some States. In response to our suggestions,
                   CMS stated that it will share this report with States and encourage
                   State Medicaid agencies to review their generic drug use by therapeutic
                   class. Finally, CMS indicated its willingness to share its expertise on
                   therapeutic interchangeability with States but noted that States also
                   have other qualified sources of this information.




 OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   iv
Δ      T A B L E                         O F                   C O N T E N T S                                      



                  EXECUTIVE SUMMARY ....................................
i



                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 7

                              Generics dispensed in 89 percent of cases where 

                              a generic exists . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                              Single source drugs comprised 41 percent of prescriptions . . . . . . . 8 


                              Of all drugs dispensed, 54 percent were generics . . . . . . . . . . . . . . 9 




                  C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                              Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




                  E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                              A: 	Key Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                              B: 	Generic Drug Utilization Indicators by State. . . . . . . . . . . . . . 19 


                              C: 	Analysis of the Impact on Medicaid Generic Drug Utilization 

                                  of Dual Eligibles’ 2006 Shift to Medicare . . . . . . . . . . . . . . . . . 21 


                              D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 





OEI-05-05-00360         G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S
Δ   I N T R O D U C T I O N                                                         





                  OBJECTIVE
                  To determine the extent of generic drug utilization in State Medicaid
                  programs during 2004.


                  BACKGROUND
                  Medicaid Prescription Drug Coverage
                  Medicaid is a jointly funded Federal and State health insurance
                  program for certain low-income and medically needy persons.
                  Individual States establish eligibility requirements, benefit packages,
                  and payment rates for their Medicaid programs under broad Federal
                  standards administered by the Centers for Medicare & Medicaid
                  Services (CMS). Medicaid requires that States provide basic services to
                  beneficiaries to receive Federal matching funds. States may also receive
                  Federal funding if they provide other optional services.

                  All State Medicaid programs have elected to include prescription drug
                  coverage. States are constrained by Federal law and regulation from
                  implementing certain drug cost containment tools that are available to
                  private health plans. Most significantly, Medicaid must cover all drugs,
                  brand and generic, whose manufacturers have entered into Medicaid
                  Rebate Agreements (with a few specific exceptions).1
                  Medicaid Prescription Drug Expenditures
                  Prescription drug coverage is one of the largest and fastest growing
                  Medicaid expenditures. In fiscal year 2003, Medicaid spent more than
                  $34 billion on prescription drugs.2 Medicaid prescription drug costs
                  doubled between 1998 and 2002, rising from less than 8 percent to over
                  11 percent of the total Medicaid budget.3 From 2000 to 2002 alone,
                  prescription drug expenditures in fee-for-service Medicaid programs
                  grew faster than expenditures in any other Medicaid service category,
                  averaging an 18.8 percent increase per year.4 As a result of rising costs,
                  States currently devote over one-fifth of their budgets to Medicaid
                  spending.5
                  Approximately 6 million beneficiaries are eligible for both Medicaid and
                  Medicare (dual eligibles).6 This population represents about 15 percent
                  of all Medicaid beneficiaries.7 On January 1, 2006, prescription drug
                  coverage for these beneficiaries transferred from Medicaid to Medicare.8
                  This shift may affect Medicaid drug utilization patterns and

OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   1
I N T R O D        U C T              I O N


                    expenditures, given dual eligibles’ extensive utilization of prescription
                    drugs. However, Medicaid will continue to be responsible for 45 million
                    nondually eligible beneficiaries.
                    Generic Drugs
                    A generic drug is chemically identical to its brand name counterpart,
                    with the same therapeutic effect and the same risk-benefit profile. To
                    be approved by the Food and Drug Administration (FDA), a generic
                    drug must contain the same amount(s) of the same active ingredient(s)
                    as the brand name product.9 (For a detailed definition of this and other
                    key terms, please see Appendix A.) The generic drug must also be the
                    same strength, be available in the same dosage, have the same route of
                    administration, and have essentially the same labeling as the brand
                    name drug. Generic drug manufacturing and packaging facilities are
                    held to the same safety and quality standards as those of brand name
                    drugs.
                    Potential Savings from Increasing Generic Drug Utilization
                    Generic drugs are much less expensive than brand name drugs. In
                    2003, the average brand name prescription cost $83.66, while the
                    average generic prescription cost $30.58, a 63 percent difference.10
                    Rising Medicaid costs have bolstered Federal support for using generic
                    drugs to contain Medicaid prescription drug expenditures.11 During
                    congressional hearings on Medicaid prescription drug reimbursement
                    held in December 2004, the Chairman of the Committee on Energy and
                    Commerce stated that “. . . generic drugs have a critical role to play in
                    containing soaring drug costs.”12 Congress has also indicated its
                    interest in using generic drugs to control costs; the Medicare
                    Prescription Drug, Improvement, and Modernization Act of 2003
                    includes provisions to promote generics in the new Medicare
                    prescription drug benefit.

                    Pursuant to Federal law and regulation, States retain some flexibility in
                    containing Medicaid drug costs through encouraging a shift from brand
                    name to generic drug utilization. States can achieve this shift by
                    encouraging pharmacies to dispense generics when possible and by
                    encouraging doctors to prescribe multisource drugs (i.e., drugs with
                    generic equivalents) when clinically indicated.

                    Forty-one State Medicaid programs have “mandatory generic
                    substitution” policies, which require that generic drugs be dispensed
                    whenever a generic version of the drug is available.13 However, many
                    States allow physicians to override mandatory generic substitution by

 OEI-05-05-00360    G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   2
I N T R O D        U C T              I O N


                    indicating “Dispense as Written” and/or “Brand Medically Necessary” on
                    the prescription. A few States require physicians or pharmacists to take
                    additional steps to override the substitution, such as obtaining prior
                    authorization from the Medicaid program and/or citing a specific
                    medical necessity for the brand (such as allergy to an inactive
                    ingredient in the generic) before the brand name drug can be dispensed.

                    Some State Medicaid programs have taken other measures to encourage
                    generic drug utilization. These include placing generics on the
                    preferred drug list, setting higher copayments for brand name drugs,
                    paying higher pharmacy dispensing fees for generic drugs, requiring
                    beneficiaries to try a generic drug for their condition before covering a
                    brand name drug (“step therapy”), and educating health care providers
                    about use of generic drugs (“counter-detailing”).14
                    Generic Drug Substitution
                    “Generic substitution” means dispensing a generic drug instead of its
                    brand name equivalent. Generic substitution is only possible when a
                    health care provider prescribes a multisource drug (i.e., a drug with a
                    generic equivalent). Generic substitution occurs when a physician
                    prescribes the generic version of a multisource drug rather than its
                    brand name equivalent, or when a pharmacist is presented with a
                    prescription for a multisource brand name drug and dispenses the
                    generic version instead.15
                    Theoretically, States should be able to achieve high generic substitution
                    rates, because generic drugs are chemically and therapeutically
                    equivalent to their brand name counterparts. There are situations in
                    which generic substitution is not possible, but these circumstances are
                    rare. For example, a small percentage of patients may medically
                    require the brand name version of a drug if they are allergic to an
                    inactive ingredient such as a dye or binder found in the generic version.
                    Additionally, disruptions in the supply chain may mean that a
                    pharmacy occasionally does not have the generic version of a drug in
                    stock and must dispense the brand name.16 Despite these potential
                    barriers, generic substitution rates above 90 percent have been reported
                    by private health plans.17
                    Generic substitution is an attractive option for cost containment,
                    because it can save money without adversely affecting beneficiaries’
                    health. CMS encourages generic substitution as a safe and effective
                    strategy by which States may lower Medicaid drug costs, noting the
                    90 percent substitution rates achieved in some private health plans.18

 OEI-05-05-00360    G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   3
I N T R O D        U C T              I O N


                    While generic substitution generally achieves savings, it may not save
                    money in all circumstances. Medicaid’s net drug payments are based on
                    reimbursement to pharmacies, minus rebates from drug manufacturers.
                    Shifting from brand name to generic drugs will almost always lower
                    Medicaid reimbursements because generic drugs are generally much
                    less expensive than brand name drugs. However, States usually receive
                    higher Medicaid rebates for brand name drugs than for generic drugs.
                    In some cases, it is possible that the higher Medicaid rebate could lead
                    to a lower net payment for a brand name drug than for its generic
                    equivalent.
                    Single Source Drug Prescribing
                    The rate at which single source drugs (i.e., drugs with no generic
                    equivalents) are prescribed in a State depends on a number of factors.
                    These include prescriber habits, patient demand for newer or highly
                    advertised drugs, and therapeutic advances associated with newer
                    drugs. For some conditions, single source drugs are the only available
                    treatment. However, other conditions are treatable with a number of
                    different drugs, some of which have generic equivalents and some of
                    which do not. For some patients, only one prescription drug option is
                    appropriate, but for other patients, a variety of drugs may work equally
                    well. In those instances, some States and private insurers encourage
                    health care providers to prescribe drugs with generic equivalents rather
                    than single source drugs, which tend to be newer and more expensive.


                    SCOPE AND METHODOLOGY
                    Scope
                    This study focused on analyzing States’ patterns of generic drug
                    utilization rather than describing States’ policies. Detailed information
                    on State Medicaid policies, including policies that encourage generic
                    utilization, is available from multiple sources. Further, we did not test
                    for evidence of causal links between State policies and patterns of
                    generic drug utilization. Generic drug utilization is influenced by
                    numerous factors in addition to State Medicaid policies, and we had no
                    means of controlling for those factors to identify the effects of the
                    policies themselves.

                    Instead, by calculating indicators of generic utilization and
                    benchmarking States against one another, this study explored the
                    potential avenues for increasing generic drug utilization. We did not
                    make any clinical assessments as to what rates of generic substitution,

 OEI-05-05-00360    G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   4
I N T R O D        U C T              I O N


                    single source drug prescribing, or overall generic utilization are
                    desirable or appropriate.
                    Methodology
                    In this study, we analyzed the population of national drug codes (NDC)
                    for drugs purchased by State Medicaid programs through fee-for-service
                    in 2004. To do so, we used utilization data from the Medicaid Drug
                    Rebate (MDR) program and drug product data from First DataBank.
                    The MDR data do not include utilization for drugs purchased by
                    managed care organizations or pharmacy benefit managers under
                    contract with State Medicaid agencies. The data also do not include
                    utilization for drugs purchased from entities that receive the 340B
                    discount.19 Drug utilization data were not available for the State of
                    Arizona because it did not participate in the MDR program.

                    Because the populations that use prescription drugs most heavily, as
                    well as pharmacy benefits as a whole, are frequently excluded from
                    Medicaid managed care, the fee-for-service population accounts for the
                    majority of Medicaid prescriptions.20
                    Measuring Generic Utilization
                    For each State (including the District of Columbia, herein referred to as
                    a State), we calculated the overall rate of generic drug utilization by
                    dividing the total number of generic drug prescriptions by the total of all
                    prescriptions. We also calculated the following two indicators that
                    contribute to overall utilization:

                    1. 	 Generic substitution rate: we divided the number of generic drug
                         prescriptions by the total of all multisource prescriptions (both
                         generic and multisource brand). We considered a drug substitutable
                         if it has an FDA A-rated generic equivalent available.21
                    2. 	 Single source prescribing rate: we divided the total of all single
                         source prescriptions by the total of all prescriptions.

                    To determine whether the shift of dual eligibles from Medicaid to
                    Medicare drug coverage will likely affect Medicaid generic utilization
                    patterns, we repeated our calculation of the generic substitution rate,
                    single source prescribing rate, and generic utilization rate with dual
                    eligibles excluded from the analysis. We estimated the proportion of
                    prescriptions for each NDC that were dispensed to dual eligibles using
                    2003 Medicaid Statistical Information System data (the most recent
                    available). See Appendix C for our analysis of the impact on Medicaid



 OEI-05-05-00360    G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   5
I N T R O D        U C T              I O N

                    generic drug utilization of the dually eligible population’s shift to
                    Medicare.
                    Comparing Patterns of Generic Utilization
                    To compare generic drug utilization among State Medicaid programs,
                    we calculated the mean, median, standard deviation, and range for each
                    indicator.
                    Standards
                    This study was conducted in accordance with “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-05-00360    G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   6
   F   I N D I N G         S
 Δ         F I N D I N G S

On average, generics were dispensed 89 percent              The “generic substitution rate”
      of the time when generic substitutes were             measures how often generics are
                                                            dispensed when generic substitutes
                                       available
                                                            are available. CMS has encouraged
                         State Medicaid programs to increase generic substitution, noting that
                         some private health plans have achieved rates of over 90 percent.22
                         Overall, Medicaid was close to achieving this private sector benchmark
                         in 2004. Across all States, both the median and the average generic
                         substitution rates were 89 percent. Twenty-three States had generic
                         substitution rates at or above 90 percent. Appendix B displays the
                         generic substitution rate for each State Medicaid program.

                         We found no evidence that generic substitution will change
                         substantially due to the 2006 transfer of dual eligibles from Medicaid to
                         Medicare drug coverage. Excluding dual eligibles from the analysis
                         produced an average generic substitution rate of 88 percent for nondual
                         eligibles, just 1 percentage point lower than the overall average.
                         Appendix C provides additional analysis of the impact on Medicaid
                         generic drug utilization of the dually eligible population’s shift to
                         Medicare.
                         Generally, generic substitution rates were similar across States
                         Across States, Medicaid programs did not demonstrate substantial
                         variation in their levels of generic substitution. The lowest State rate
                         was 83 percent, 9 percentage points below the highest State rate of
                         92 percent. However, the majority of States were clustered tightly
                         around the median substitution rate of 89 percent. For example,
                         substitution rates for the middle 80 percent of States all fell within a
                         4 point range, from 87 percent to 91 percent.
                         However, States’ generic substitution rates varied within certain therapeutic
                         classes of drugs
                         Within certain therapeutic classes (i.e., groups of drugs that treat the
                         same medical condition), some State Medicaid programs achieved
                         substantially higher generic substitution rates than others. For
                         example, the generic substitution rate for anticoagulant drugs (blood
                         thinners) ranged from 27 percent in one State to 100 percent in another.
                         For other therapeutic classes, States demonstrated greater consistency
                         in their generic substitution rates. For example, generic substitution
                         rates for narcotic analgesics (pain relievers) ranged from 95 percent to
                         100 percent across the States. Table 1 presents the minimum and
                         maximum generic substitution rates across States for selected

       OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   7
F    I N D I N G                  S


                                therapeutic classes, as well as the total 2004 Medicaid reimbursement
                                for multisource drugs in each class to provide an overview of fiscal
                                significance.


      Table 1: Substitution Rates and Reimbursement Across State Medicaid Programs
               for Selected Therapeutic Classes in 2004

                                                                                                           Percentage          Medicaid
      Therapeutic Class                           Minimum                         Maximum
                                                                                                         Point Difference   Reimbursement*

      Narcotic analgesics                            95%                            100%                            5             $712,000,000

      Psychostimulants-
                                                      61%                            89%                            28            $616,000,000
      Antidepressants

      Anticonvulsants                                80%                             99%                            19            $570,000,000

      Diabetic therapy                                63%                            91%                            28            $396,000,000

      Antiulcer/gastrointestinal
                                                      69%                            99%                            30            $302,000,000
      preparations

      Antiarthritics                                  86%                           100%                            14            $264,000,000

      Anticoagulants                                  27%                           100%                            73            $187,000,000

      Bronchial dilators                              31%                            78%                            47            $154,000,000

      Antinauseants                                   93%                           100%                             7            $130,000,000

      Systemic contraceptives                          4%                            79%                            75             $98,000,000

    *Rounded to the nearest million. Includes reimbursement only for multisource drugs in each therapeutic class.

    Source: Office of Inspector General analysis of 2004 State Medicaid drug utilization data, 2006.




     On average, 41 percent of prescriptions were                          Single source drugs have no
                                                                           generic substitutes. When a
                    written for drugs that have no
                                                                           single source drug is prescribed,
                               generic substitutes
                                                                           a generic drug cannot be
                                dispensed. Therefore, the proportion of prescriptions that are written
                                for single source drugs (i.e., the single source prescribing rate) limits
                                States’ opportunities to utilize generic drugs.

                                On average, single source drugs comprised 41 percent of all
                                prescriptions filled. Thus, for this 41 percent of prescriptions, there was
                                no opportunity to dispense a generic drug.




    OEI-05-05-00360             G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S                        8
  F   I N D I N G         S


                        Levels of single source drug prescribing varied across States
                        Across State Medicaid programs, the single source prescribing rate
                        ranged from a high of 50 percent (New Jersey) to a low of 34 percent
                        (Washington and Hawaii). Consequently, there were substantially
                        fewer opportunities to dispense generic drugs in some States than in
                        others. Many factors may affect single source drug prescribing,
                        including patient mix, prescriber habits, advances in certain drug
                        treatments, and patient demand for newer or highly advertised drugs.
                        Appendix B provides the single source prescribing rate for each State.



                                                           The “generic utilization rate” is the
On average, 54 percent of all drugs dispensed
                                                           percentage of all prescriptions
                                 were generics
                                                           dispensed that were generics. Across
                        all States, both the median and the average generic utilization rates
                        were 54 percent. To place these numbers in context, trade publications
                        report 2004 generic utilization rates of approximately 48 percent to
                        52 percent for many private pharmacy benefit organizations and health
                        plans.23
                        State Medicaid programs varied in their generic utilization. The
                        highest State rate (61 percent) was 17 percentage points higher than
                        the lowest State rate (44 percent). In four States, 60 percent or more of
                        all drugs dispensed were generics. By comparison, in eight States less
                        than half of all drugs dispensed were generics. Appendix B provides the
                        generic utilization rate for each State.
                        Variation in generic utilization was primarily explained by variation in single
                        source drug prescribing
                        Generic drug utilization is affected both by generic drug substitution
                        and by physician prescribing patterns. However, because there was
                        little variation in generic substitution, it did not play a major role in
                        explaining differences between States in overall utilization. For
                        example, 17 States had generic substitution rates of 90 percent.
                        However, generic utilization in those States ranged from 48 percent to
                        61 percent.

                        In contrast, the relationship between generic utilization and single
                        source prescribing was strong. Generic utilization was highest in States
                        where single source prescribing was lowest. For example, of all
                        50 States reviewed, Washington had the highest generic utilization
                        (State rate was 61 percent) and the lowest single source prescribing
                        (34 percent). Conversely, New Jersey had both the lowest generic

      OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   9
F   I N D I N G                                                  S


                                                               utilization (State rate was 44 percent) and the highest single source
                                                               prescribing (50 percent).

                                                               Chart 1 displays 2004 generic utilization and single source prescribing
                                                               data from the 50 States.


                                                                  Chart 1: State Medicaid Programs’ Generic Utilization Rates
                                                                                    vs. Single Source Drug Prescribing Rates in 2004
                                                         65%
                States' 2004 Generic Utilization Rates




                                                         60%
         States’
         2004
         Generic 55%
         Utilization
         Rates
                    50%


                                                         45%


                                                         40%
                                                            30%                            35%                              40%                            45%   50%   55%
                                                                                                     States' 2004 Single Source Prescribing Rates




    OEI-05-05-00360                                            G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S               10
Δ   C O N C L U S I O N                                                


                  We found that, overall, State Medicaid programs demonstrated high
                  generic drug utilization in 2004. On average, 54 percent of all prescriptions
                  filled were generics. To place this rate in context, trade publications
                  report 2004 generic utilization rates of 48 percent to 52 percent for
                  many private pharmacy benefit organizations and health plans.24
                  On average, generics were dispensed 89 percent of the time when
                  generic substitutes were available. Twenty-three States had generic
                  substitution rates at or above 90 percent, comparing favorably with the
                  90 percent private sector benchmark noted by CMS. The high levels of
                  generic substitution that we found for many Medicaid programs suggest
                  that many States may have already achieved most of the growth in
                  generic utilization possible through increasing generic substitution.
                  Still, some States, particularly those with substitution rates below the
                  median, may wish to consider taking additional measures to increase
                  generic substitution. Certain therapeutic classes show substantial
                  variation in States’ generic substitution rates, and thus, greater
                  potential for gains in States with lower rates in those classes.

                  To achieve significant increases in generic drug utilization, it is
                  important to recognize that single source drug prescribing caps the level
                  of generic drug utilization a State Medicaid program can attain. States
                  may realize greater gains by encouraging the prescribing of multisource
                  drugs, which have generic equivalents, through counter-detailing, step
                  therapy requirements, or other means. However, such efforts must be
                  undertaken with caution to ensure that patients maintain access to
                  appropriate treatment.

                  In light of these findings, we suggest that CMS consider the following:

                  o	 For States seeking to further increase generic substitution, CMS could
                     assist States in identifying and targeting their efforts to promote
                     generics in therapeutic classes wherein their State rate is
                     substantially lower than other States and opportunities for gains are
                     greatest.

                  o 	 For States seeking more substantial gains in generic utilization,
                      CMS could offer information and technical assistance in shifting
                      utilization from single source to multisource drugs in a clinically
                      responsible manner. In particular, CMS has developed expertise in
                      the therapeutic interchangeability of drugs through Medicare’s
                      oversight of Part D formularies. Such expertise would be a valuable
                      resource for States that desire assistance in developing policies to
                      influence prescribing patterns.

OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   11
C O   N C L        U S I O             N            




                     AGENCY COMMENTS
                     In its comments, CMS indicated that it strongly encourages the
                     dispensing of generic drugs. As OIG noted in our report, drug
                     manufacturer rebates may occasionally provide States with better
                     prices on some brand name drugs than on generics. CMS suggested
                     that this could account for lower generic utilization rates for certain
                     therapeutic classes in some States. In response to our suggestions,
                     CMS stated that it will share this report with States and encourage
                     State Medicaid agencies to review their generic drug use by therapeutic
                     class. Finally, CMS indicated its willingness to share its expertise on
                     therapeutic interchangeability with States but noted that States also
                     have other qualified sources of this information.

                     The full text of CMS’s comments is included in Appendix D.




 OEI-05-05-00360     G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   12
Δ   E N D N O T E S                                   





                     These exceptions include: agents when used to promote fertility;
                      1

                  agents when used for cosmetic purposes or hair growth; agents when
                  used for the symptomatic relief of cough and colds; prescription vitamins
                  and mineral products, except prenatal vitamins and fluoride
                  preparations; nonprescription drugs; barbiturates; and benzodiazepines.
                  42 U.S.C. § 1396r-8(d)(2).

                     Testimony of Dennis Smith, Director, Center for Medicaid and State
                      2

                  Operations, Centers for Medicare & Medicaid Services, before the House
                  Energy and Commerce Subcommittee on Oversight and Investigations,
                  December 7, 2004. Available online at
                  new.cms.hhs.gov/apps/media/press/testimony.asp?Counter=1278.
                  Accessed January 18, 2006.

                     Bruen, Brian and Ghosh, Arunabh. Kaiser Commission on Medicaid
                      3

                  and the Uninsured. “Medicaid Prescription Drug Spending and Use,”
                  page 3. June 2004.

                      4   Ibid.

                    National Governor’s Association and National Association of State
                      5

                  Budget Officers. “Fiscal Survey of States,” page 3. June 2005.

                     Centers for Medicare & Medicaid Services. “A Strategy for
                      6

                  Transitioning Dual Eligibles from Medicaid to Medicare Drug Coverage.”
                  May 2, 2005. Available online at
                  www.cms.hhs.gov/medicarereform/strategyforduals.pdf.

                     Centers for Medicare & Medicaid Services. “2003 CMS Statistics.”
                      7

                  Available online at www.cms.hhs.gov/researchers/pubs/03cmsstats.pdf.

                     Centers for Medicare & Medicaid Services. “A Strategy for
                      8

                  Transitioning Dual Eligibles from Medicaid to Medicare Drug Coverage.”
                  May 2, 2005. Available online at
                  www.cms.hhs.gov/medicarereform/strategyforduals.pdf.




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   13
                     Food and Drug Administration. “What are Generic Drugs?”
                      9

                  Available online at www.fda.gov/cder/ogd/#Introduction. Accessed
                  January 18, 2006.

                      National Association of Chain Drug Stores. “Issue Brief: Retail
                      10

                  Prescription Prices for Generic Drugs.” October 2004. Available at
                  www.nacds.org/user-assets/pdfs/gov_affairs/issuebriefs/.

                      For example: Centers for Medicare & Medicaid Services. “Safe and
                      11

                  Effective Approaches to Lowering Prescription Drug Costs: Best
                  Practices Among State Medicaid Drug Programs.” September 9, 2004.
                  Also, “Medicaid Prescription Drug Reimbursement: Why the
                  Government Pays Too Much, 2004”: Hearing Before the Subcommittee
                  on Oversight and Investigations of the Senate Committee on Energy and
                  Commerce, 108th Congress, 2nd Session.

                      “Medicaid Prescription Drug Reimbursement: Why the Government
                      12

                  Pays Too Much, 2004”: Hearing Before the Subcommittee on Oversight
                  and Investigations of the Senate Committee on Energy and Commerce,
                  108th Congress, 2nd Session.

                      National Pharmaceutical Council. Pharmaceutical Benefits Under
                      13

                  State Medical Assistance Programs, 2003.

                      National Pharmaceutical Council. Pharmaceutical Benefits Under
                      14

                  State Medical Assistance Programs, 2003.

                   Crowley, Jeffrey; Ashner, Deb; Elam, Linda. Kaiser Commission on
                  Medicaid and the Uninsured. Medicaid Outpatient Prescription Drug
                  Benefits: Findings from a National Survey, 2003. December 2003.
                  Page iv.

                    Centers for Medicare & Medicaid Services. Medicaid Prescription
                  Reimbursement by State – Quarter Ending March 2005. Available online
                  at www.cms.gov/meidcaid/drugs/pre0305.pdf. Accessed August 22, 2005.

                      In some States, pharmacists must inform and/or obtain the
                      15

                  consumer’s permission to make this substitution. Additionally, such
                  substitution at the pharmacy counter may be requested by the consumer




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   14
                  in order to save money on copays, coinsurance, or out-of-pocket drug
                  costs.

                      Food and Drug Administration. “Drug Shortages.” Available online
                      16

                  at www.fda.gov/cder/drug/shortages. Accessed August 18, 2005.

                      Centers for Medicare & Medicaid Services. “Safe and Effective
                      17

                  Approaches to Lowering Prescription Drug Costs: Best Practices Among
                  State Medicaid Drug Programs.” September 9, 2004.

                      18   Ibid.

                       The 340B Drug Discount Program is a Federal discount program that
                      19

                  requires pharmaceutical manufacturers to lower outpatient drug prices
                  for qualified Federal grantees including Community Health Centers and
                  Disproportionate Share Hospitals.

                     Centers for Medicare & Medicaid Services. Statistical Compendium:
                      20

                  Medicaid Pharmacy Benefit Use and Reimbursement in 1999. Exhibit 3.

                      Generic drugs that receive an A rating have been found by FDA to be
                      21

                  pharmaceutically and therapeutically equivalent to the brand name
                  product. All A-rated products either have no known or suspected
                  bioequivalence problems (codes AA, AN, AO, AP, and AT), or any
                  suspected bioequivalence problems have been resolved with in vivo or in
                  vitro evidence (code AB).

                    Food and Drug Administration, The Orange Book, page xii. Available
                  online at www.fda.gov/cder/orange/obannual.pdf. Accessed February 9,
                  2006.

                      Centers for Medicare & Medicaid Services. “Safe and Effective
                      22

                  Approaches to Lowering Prescription Drug Costs: Best Practices Among
                  State Medicaid Drug Programs.” September 9, 2004.

                      Managed Care Week. “Some Insurers Say Pharmacy Costs Could
                      23

                  Help Drive Medical Cost Growth in 2004.” May 24, 2004. Available
                  online at
                  www.aishealth.com/ManagedCare/GenBus/MCWSomeInsure.html.




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   15
                    PharmaCare. “Press Release: Advantage Health Solutions and
                  PharmaCare Partnership Results in Proven Cost Savings.” October 13,
                  2004. Available online at www.pharmacare.com/corporate/news_info.jsp.

                    Drug Benefit News. “Continued Increases in Generic Utilization Mean
                  Big Savings.” October 15, 2004. Available online at
                  www.aishealth.com/DrugCosts/DBNGeneric.html.

                   Raymond James Associates, Inc. “CaremarkRX.” Available online at
                  www.raymondjames.com/pdfs/company/cmx080405c_1636.pdf.

                    Samalonis, Lisa B. Drug Topics. “Generic Drug Use Varies Widely by
                  State.” April 1, 2005. Available online at
                  www.drugtopics.com/drugtopics/articleDetail.jsp?id=152728.

                      24   Ibid.




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   16
A   P   P E N D       I X             ~           A
Δ       A P P E N D I X                                 ~               A           



                      KEY TERMS
                      Single source drug: A brand name drug with no generic equivalent.
                      Multisource brand drug: A brand name drug with at least one generic
                      equivalent. Medicaid’s technical term for these drugs is “innovator
                      multiple-source” drugs.
                      Generic drug: A drug that is a chemical copy of a brand name drug.
                      Medicaid’s technical term for these drugs is “non-innovator multiple-
                      source” drugs. All generic drugs are considered multisource drugs, since
                      a brand version was available first.
                      Generic utilization rate: The percentage of all prescriptions filled that
                      were generics.
                      Generic substitution: Substituting a generic drug for its brand name
                      equivalent.
                      Generic substitution rate: The percentage of prescriptions for all
                      multisource drugs (both multisource brand and generic) that are
                      dispensed as generics. This indicator measures how often a generic is
                      dispensed when a generic version of the prescribed drug exists. It is
                      sometimes referred to as the generic “penetration” or “efficiency” rate.
                      Single source drug prescribing rate: The percentage of all prescriptions
                      that are written for single source drugs. This indicator measures how
                      often providers write a prescription for a drug that has no generic
                      equivalent.
                      Therapeutic substitution: Substituting one drug for another that is
                      chemically different but treats the same medical condition.
                      Active ingredient: A substance in a drug that gives the drug its
                      pharmaceutical effect. A multisource brand name drug and its generic
                      equivalent(s) share the same active ingredient.
                      Inactive ingredient: A substance in a drug that does not impact its
                      pharmaceutical effect, such as dyes or fillers. A multisource brand
                      name drug and its generic equivalent(s) may have different inactive
                      ingredients.
                      Therapeutic class: A group of drugs that treat the same medical
                      condition.




    OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   17
A P P E N D        I X             ~ A


                   National drug code (NDC): A unique numeric identifier for each drug
                   that includes information about the manufacturer, strength, dosage,
                   and package size.
                   Step therapy: A cost control mechanism that requires patients to try a
                   less expensive (often generic) drug for their condition before a more
                   expensive (often brand name) drug will be covered.
                   Counter-detailing: Educational outreach to health care providers.




 OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   18
Δ   A P P E N D I X                                 ~               B            



                  GENERIC DRUG UTILIZATION INDICATORS BY STATE
                  Table 2 presents the following rates for each State Medicaid program.

                  o Generic substitution rate: the percentage of all prescriptions for
                      drugs with generic equivalents that were dispensed as generics.
                  o Single source prescribing rate: the percentage of all prescriptions
                      that were for single source drugs, which have no generic equivalent.
                  o Generic utilization rate: the percentage of all prescriptions filled
                      that were generics.


                  Table 2: Generic Drug Utilization in State Medicaid Programs, 2004

                                                                               Generic                         Single Source          Generic
                                     State
                                                                           Substitution Rate                  Prescribing Rate   Utilization Rate
                  Alabama                                                            90%                            35%               61%
                  Alaska                                                             85%                            48%               46%
                  Arkansas                                                           88%                            44%               52%
                  California                                                         83%                            46%               50%
                  Colorado                                                           89%                            40%               55%
                  Connecticut                                                        90%                            46%               49%
                  Delaware                                                           89%                            46%               49%
                  District of Columbia                                               91%                            44%               52%
                  Florida                                                            92%                            45%               51%
                  Georgia                                                            89%                            43%               52%
                  Hawaii                                                             92%                            34%               60%
                  Idaho                                                              89%                            46%               49%
                  Illinois                                                           89%                            36%               59%
                  Indiana                                                            90%                            36%               59%
                  Iowa                                                               89%                            39%               57%
                  Kansas                                                             90%                            42%               53%
                  Kentucky                                                           90%                            37%               59%
                  Louisiana                                                          89%                            43%               52%
                  Maine                                                              84%                            42%               53%
                  Maryland                                                           90%                            47%               48%
                  Massachusetts                                                      90%                            38%               58%
                  Michigan                                                           90%                            40%               55%
                  Minnesota                                                          91%                            39%               56%
                  Mississippi                                                        90%                            43%               52%
                  Missouri                                                           90%                            38%               56%
                  Source: Office of Inspector General analysis of 2004 State Medicaid drug utilization data, 2006.




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S                                   19
A   P   P E N D       I X             ~           B                





                           Generic Drug Utilization in State Medicaid Programs, 2004 Continued

                                                                                       Generic                         Single Source          Generic
                                            State
                                                                                   Substitution Rate                  Prescribing Rate   Utilization Rate

                            Montana                                                          88%                            40%               56%
                            Nebraska                                                         89%                            36%               59%
                            New Hampshire                                                    88%                            39%               56%
                            New Jersey                                                       89%                            50%               44%
                            New Mexico                                                       86%                            36%               58%
                            New York                                                         87%                            45%               50%
                            Nevada                                                           90%                            41%               54%
                            North Carolina                                                   88%                            45%               49%
                            North Dakota                                                     88%                            41%               53%
                            Ohio                                                             87%                            42%               54%
                            Oklahoma                                                         90%                            37%               58%
                            Oregon                                                           90%                            35%               60%
                            Pennsylvania                                                     88%                            43%               51%
                            Rhode Island                                                     91%                            43%               52%
                            South Carolina                                                   89%                            45%               49%
                            South Dakota                                                     88%                            45%               50%
                            Tennessee                                                        90%                            39%               56%
                            Texas                                                            90%                            40%               55%
                            Utah                                                             89%                            39%               56%
                            Vermont                                                          91%                            43%               51%
                            Virginia                                                         88%                            39%               56%
                            Washington                                                       90%                            34%               61%
                            West Virginia                                                    89%                            39%               55%
                            Wisconsin                                                        90%                            39%               56%
                            Wyoming                                                          87%                            45%               51%
                           Source: Office of Inspector General analysis of 2004 State Medicaid drug utilization data, 2006.




    OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N       IN   S TAT E M E D I C A I D P R O G R A M S                                   20
Δ   A P P E N D I X                                        ~               C            





                         ANALYSIS OF THE IMPACT ON MEDICAID GENERIC DRUG
                         UTILIZATION OF DUAL ELIGIBLES’ 2006 SHIFT TO MEDICARE
                         In 2006, dual eligibles began receiving prescription drug coverage
                         through Medicare. Dual eligibles made up approximately 15 percent of
                         Medicaid beneficiaries in 2004, and their transfer from Medicaid to
                         Medicare will affect Medicaid’s overall prescription drug expenditures.
                         However, excluding dual eligibles from our analysis made little
                         difference in patterns of generic drug utilization. Table 3 displays 2004
                         average generic substitution, single source prescribing, and generic
                         utilization rates for all Medicaid beneficiaries and for nondually eligible
                         beneficiaries.

     Table 3: 2004 Indicators of Generic Drug Utilization:
     All Medicaid Beneficiaries vs. Nondually Eligible Beneficiaries

                                                                      Generic                                 Single Source          Generic
                                                                  Substitution Rate                          Prescribing Rate   Utilization Rate

      All Medicaid Beneficiaries                                               89%                                   41%             54%

      Nondually Eligible Beneficiaries                                         88%                                   43%             53%

      Percentage Point Difference                                               (-1)                                 +2               (-1)
     Source: Office of Inspector General analysis of 2004 State Medicaid drug utilization data, 2006.




OEI-05-05-00360          G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S                            21
Δ   A P P E N D I X                                 ~               D            



                  AGENCY COMMENTS





OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S   22
Δ   A C K N O W L E D G M E N T S                                                                             




                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Erin Lemire, Project Leader
                  Louise Schoggen, Lead Analyst

                  Mark Stiglitz, Program Analyst

                  Tom Komaniecki, Senior Program Analyst

                  Linda Boone Abbott, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch




OEI-05-05-00360   G E N E R I C D R U G U T I L I Z AT I O N   IN   S TAT E M E D I C A I D P R O G R A M S       23
